             United States Department of the Interior
                             Office of Inspector General
                              Washington, D.C. 20240




                                                                          January 7, 2004


Memorandum

To:        Director, National Park Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject: Management Issues Identified During the Audit of the National Park Service’s
         Fiscal Year 2003 Financial Statements (Report No. E-IN-NPS-0037-2004)

       We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the National Park Service’s (NPS) financial statements as of
September 30, 2003. In conjunction with its audit, KPMG noted certain matters
involving internal controls and other operational matters that should be brought to
management’s attention. These matters, which are discussed in the attached letter, are in
addition to those reported in KPMG’s audit report on NPS’s financial statements (Report
No. E-IN-NPS-0067-2003) and do not constitute reportable conditions as defined by the
American Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.A.
App. 3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report.

Attachment

cc:     Assistant Secretary for Fish and Wildlife and Parks
        Director, Office of Financial Management
        Director, Accounting Operations Center, National Park Service
        Audit Liaison Officer, Fish and Wildlife and Parks
        Audit Liaison Officer, National Park Service
        Focus Leader for Management Control and Audit Followup,
         Office of Financial Management
                2001 M Street NW
                Washington, DC 20036




November 14, 2003


Director, National Park Service and Inspector General
U.S. Department of the Interior:

We have audited the consolidated balance sheets of the of the National Park Service (NPS) as of
September 30, 2003 and 2002, and the related consolidated statements of net cost, consolidated statements
of changes in net position, combined statements of budgetary resources, and consolidated statements of
financing, for the years then ended, and have issued our report thereon dated November 14, 2003. In
planning and performing our audit of the financial statements, we considered NPS’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements. An audit does not include examining the effectiveness of internal control and
does not provide assurance on internal control. We have not considered internal control since the date of
our report.

During our audit we noted certain matters involving internal control and other operational matters that are
presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies and are summarized as follows.

1.    Reconciliation Controls

      NPS has established reconciliation controls over various processes. However, we identified the
      following during our review of certain reconciliations:

      a. Credit Card Receipt Reconciliation – Although, NPS has established a policy requiring
         individual parks to reconcile credit card receipts from the cash register reports to a report
         provided by the Accounting Operations Center, NPS does not perform procedures to ensure that
         parks perform these required reconciliations. Harpers Ferry park personnel were not aware of
         the required reconciliation procedures and Everglades park personnel did not perform the
         required reconciliation timely. At the time of our site visit, Everglades National Park had not
         performed the reconciliation for the months of October 2002 through February 2003.

      b. Third Party Draft Reconciliation – NPS communicates differences identified during the third
         party draft reconciliation process to the Chase Manhattan bank at month end. However, a
         difference of $1,744 identified during the December reconciliation was not communicated and
         resolved until May 2003.

      c. Suspense Account Reconciliation – NPS reconciles the suspense account balance each month.
         However, NPS’s current policies do not designate an established timeframe to resolve suspense
         transactions. Our review of a sample of 20 suspense account transactions indicated six items that
         had either not been removed from the suspense account or had not been removed from the
         suspense account in a timely manner.


                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                member firm of KPMG International, a Swiss cooperative.
     Recommendations

     We recommend that NPS improve its reconciliation controls as follows:

     a. Credit Card Receipt Reconciliation – Perform periodic inspections of the reconciliations from
        the cash register reports to the credit card reports to ensure that parks perform the reconciliations
        timely.

     b. Third Party Draft Reconciliation – Resolve all differences identified during reconciliations in the
        current or subsequent month.

     c. Suspense Account Reconciliation – Revise its policy to require individuals to investigate and
        resolve transactions in the suspense account in the current or subsequent month. Consider
        clearing out smaller amounts that have been outstanding for longer than the established period.

2.   Property Transactions

     NPS needs to continue improving controls over property transactions as we noted the following:

     a. Additions – NPS recorded two property additions with an incorrect acquisition date and another
        property addition with an incorrect acquisition date and amount. NPS also received an asset in
        prior years, but did not record this asset until fiscal year 2003. In addition, NPS expensed ten
        progress payments on construction contracts instead of capitalizing the payments in the
        construction in progress account. Furthermore, NPS expensed the purchase of a vehicle that
        should have been capitalized.

     b. Deletions – NPS recorded certain property deletions in fiscal year 2003 that were actually
        disposed of in previous years.

     c. Trade-in Transactions – We identified two trade-in transactions that NPS did not properly record
        in the general ledger. Although NPS does not trade-in property frequently, the fixed asset
        system does not allow NPS to properly record trade-in transactions. Therefore, manual reviews
        and adjustments are required to properly record the disposal of the old property traded in and
        acquisition of the new property purchased.

     d. Accumulated Depreciation – NPS had not fully reconciled its accumulated depreciation as the
        subsidiary ledger did not agree with the general ledger by approximately $2.4 million at the end
        of the year. We also performed an analysis of depreciation expense by comparing the total
        additions to accumulated depreciation in the accumulated depreciation account for fiscal year
        2003 to the amount reported as depreciation expense. The amount recorded in the expense
        account was less than the accumulated depreciation account addition by $1.7 million. Similar
        reconciling differences have been identified in prior years.

     e. Heritage Assets – NPS capitalized a heritage asset that should have been expensed and
        incorrectly transferred a heritage asset expense from the construction in progress account to the
        real property account. In addition, NPS classified certain heritage assets as a general expense
        rather than as a heritage asset expense.




                                                2
     Recommendations

     We recommend that NPS perform the following to improve controls over property:

     a. Additions and Deletions – Enhance controls to ensure that transactions are properly capitalized or
        expensed, property is recorded at the time acquired or disposed, and property is recorded with
        the proper acquisition dates. Such controls may include a supervisory review of transactions to
        ensure that property information from the supporting documentation is properly entered into the
        accounting system.

     b. Trade-in Transactions – Configure the accounting system to properly record trade-in transactions
        or train personnel on how to prepare journal entries to account for trade in transactions. In
        addition, NPS should require supervisors to review trade-in transactions to ensure that they are
        properly recorded in the accounting system.

     c. Accumulated Depreciation – Reconcile depreciation expense and disposals of accumulated
        depreciation from the subsidiary ledger to the general ledger on a monthly basis. This
        reconciliation process should include resolving differences as they are identified and adjusting
        the subsidiary or general ledger, as appropriate.

     d. Heritage Assets – Review projects to ensure that projects related to heritage assets are properly
        coded in the accounting system. NPS should also provide training to employees on the
        difference between a capitalizable asset and a heritage asset and how to record and report these
        assets. NPS should review supporting documentation related to completed projects to ensure that
        they are transferred to the proper account.

3.   Budgetary Transactions

     We reviewed a $2.5 million adjustment that NPS included in the third quarter SF-133, Report on
     Budget Execution and Budgetary Resources, (SF-133) for appropriation 14X1039, to properly reflect
     NPS’s receipt of an SF-1151, Nonexpenditure Transfer Authorization. We noted that NPS received
     the transfer on November 18, 2002 but did not record the transfer until June, 2003. Therefore, the
     first and second quarter SF-133s, which NPS submitted to the Office of Management and Budget,
     did not reflect this transfer. NPS identified this as a difference through the TFS-6653, Undisbursed
     Appropriation Account Activity for the Month, reconciliation process, however, NPS did not resolve
     the difference in a timely manner.

     We also noted that ten of twenty budgetary recoveries that we tested, represented prior year
     obligations that NPS cancelled or modified in fiscal year 2003 that should have cancelled or
     modified in the prior fiscal year. This resulted as NPS’s annual verification of undelivered order
     balances did not identify these adjustments in the prior fiscal year. In addition, we noted that NPS
     did not consistently follow its policy to allow the accounting system automatically record obligations
     for utility or credit card transactions as individuals also manually entered obligations for some of
     these transactions.




                                               3
     Recommendations

     We recommend that NPS improve controls over budgetary transactions as follows:

     a. Have the Washington Area Service Office (WASO) enter all appropriation, apportionment,
        transfer, and other transactions into the accounting system as the transactions occur and forward
        the related documentation to the Accounting Operations Center (AOC) in a timely manner;

     b. Investigate and resolve differences identified through the TFS-6653 reconciliation process in a
        timely manner;

     c. Improve communication between AOC and WASO to resolve differences in the month
        identified.

     d. Improve the annual review of outstanding obligations to ensure balances are valid.

     e. Ensure individuals consistently apply NPS’s policy that credit cards, utilities, and similar
        transactions should not be obligated using manual entries, as the accounting system records
        obligations at the time of accrual or payment.

4.   Revenue and Related Transactions

     We identified the following findings related to revenue:

     a. Reimbursable Revenue – NPS recorded reimbursable revenue in fiscal year 2003 that should
        have been recorded in fiscal year 2002. This revenue related to providing law enforcement
        personnel services to the Bureau of Reclamation.

     b. Advances to Others – NPS properly reflected the advances to others balance on the general
        ledger in total; however, NPS cannot readily determine the outstanding balance for individual
        agreements or trading partners.

     c. Transfers – NPS incorrectly recorded two transfer-out transactions as unnatural transactions in
        the appropriated earmarked receipts transferred-in account.

     Recommendations

     We recommend that NPS improve controls over revenue as follows:

     a. Reimbursable Revenue – Recognize reimbursable revenue at the time services are provided and
        the related expense is incurred.

     b. Advances to Others – Revise the process for recording advances to others in the accounting
        system. NPS should record transactions related to advances to others by agreement and trading
        partner in the accounting system or prepare a subsidiary ledger for advance to others that
        summarizes the transactions and ending balances by agreement and trading partner.

     c. Transfers – Record transfer-in and transfer-out transactions in the proper general ledger
        accounts.




                                               4
Our audit procedures were designed primarily to enable us to form an opinion on NPS’s financial
statements, and therefore, may not bring to light all weaknesses in policies or procedures that exist.
However, we also take this opportunity to share our knowledge of NPS, gained during our work, to make
comments and suggestions that we hope can be useful to you. We would be pleased to discuss these
comments and recommendations with you at any time.

This report is intended for the information and use of NPS’s management, the U.S. Department of the
Interior’s management, the U.S. Department of the Interior’s Office of Inspector General, the Office of
Management and Budget, the General Accounting Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.




                                              5
